                                     Closeout for M97090028

    I n late September 1997, OIG received a telephone call from the complainant1
alleging t h a t NSF's WebCASPAR system required information that she considered
to be a n invasion of privacy. The complainant said t h a t new users were required to
provide their name and e-mail address before they were permitted access to the
WebCASPAR data files. We treated this case a s a n oversight matter, not a s a n
allegation of misconduct in science.
   WebCASPAR Web-based Computer-Aided Science Policy And Research) is a n
NSF data base system containing information on academic science and engineering
resources. By accessing the site (http://caspar.nsf.gov), OIG confirmed t h a t new
users were required to enter their names, e-mail addresses, and choose passwords
before they were able to access the data base. This information was stored so t h a t
future use did not require entering t h a t information again.
    We interviewed NSF's program manager2 (PM) responsible for WebCASPAR to
discuss the complainant's concern. He said NSF wanted that information because it
allowed it to statistically determine what percentage of users was from academia,
the government, or the private sector. NSF also compiles statistics on which data
are accessed most often to determine if any of that data should be "canned," i-e.,
made a general feature t h a t is more easily accessed. Even though WebCASPAR
was designed to provide a useful service to the public, the PM said t h a t he was
sensitive to the government creating a negative impression in some users by
requiring identifying information before any data were provided. He said he would
change the requirement t h a t users enter their names and e-mail addresses to a n
option. Our recent visit to the site confirmed this change had been implemented
and a n anonymous user login is now permitted.
   This inquiry is closed and no further action will be taken on this case.


cc: Legal, AIG-Oversight, IG




   1   (name redacted). Her professional affiliation, if any, is unknown.
   2   (footnote redacted).


                                             Page 1of 1
